Background

       In our audit of DOI’s efforts to recover from Hurricane Katrina,1 we found that NPS
made poor progress in rebuilding damaged assets. More than two years after the storm, NPS had
only obligated 24 percent of the $74 million it received in supplemental funding. We found that
one cause for NPS’s poor response was a lack of coordination between staff responsible for
planning projects and those responsible for implementing them.

        Successfully carrying out Recovery Act projects presents a substantially greater challenge
than that posed by Hurricane Katrina. NPS received $750 million in Recovery Act funding,
more than 10 times the funding it received for Hurricane Katrina. Timely and efficient
acquisition support is essential for NPS to meet the September 30, 2010 obligation requirement.

        We contacted three of NPS’s seven regions—the Intermountain, Southeast, and Pacific
West—which are responsible for more than half of the Recovery Act projects and dollars. NPS
intends to use $430 million in Recovery Act funds for 505 projects in these regions, with 57 of
these estimated at more than $344 million. Overall, NPS will provide 766 projects with
Recovery Act funding.

        We also visited Grand Teton and Yellowstone National parks. These parks are
implementing 17 Recovery Act projects at an estimated cost of $33.5 million. We spoke with
acquisition staff and facility and project managers, reviewed progress on several projects, and
discussed the parks’ systems of assessing project status.

Coordination and Communication Between Program and Contract Offices

        NPS acquisition function, according to NPS officials, is designed to be a coordinated
effort between technical staff in individual parks and acquisition staff and officials, including the
project management team. We identified effective planning and teaming as keys to successful
Recovery Act implementation in our report titled Addressing Past Areas of Vulnerability in the
Department of the Interior Programs.2 The Federal Acquisition Regulation (48 C.F.R. § 7.104)
and the Office of Management and Budget’s April 3, 2009 (M-09-15) guidance on implementing
the Recovery Act stress the importance of effective acquisition planning. Planning ensures
projects are completed in an effective, economical, and timely manner.

       Program staff is responsible for identifying projects, developing technical specifications,
preparing government cost estimates, completing required compliance activities, and assembling
information needed by acquisition staff at assigned Major Acquisition Buying Offices (MABOs).
MABOs are made up of acquisition staff in the field, often at parks. Each MABO is headed by
an experienced, lead acquisition professional, who provides guidance and reviews and oversees
the work products of field staff. Once program staff provides information to the MABOs on a
new acquisition requirement, the MABO head assigns staff to execute acquisition actions.


1
 DOI’s Hurricane Rebuilding Efforts. September 2008. C-IN-MOA-0006-2007.
2
 DOI’s Addressing Past Areas of Vulnerability in the Department of the Interior Programs. June 2009. ROO-ROA-
MOA-1006-2009

                                                                                                            2
       In our discussions with regional acquisition staff, we noted several conditions that impact
the timeliness of NPS Recovery Act’s implementation:

           1.	 Acquisition staff at the MABOs is not aware of the status of acquisition packages
               at parks and has no easy way to gauge when their support will be needed to
               execute actions.

           2.	 The MABO structure is relatively new within NPS and there are still, according to
               staff, “growing pains” with policies and procedures, hiring new staff, and
               processes for interacting with parks.

           3.	 Lack of communication between acquisition and technical staff early in the
               process results in a lack of technical information needed to support acquisitions.
               Specifications and other technical information are revised, often several times, to
               provide the acquisition staff everything necessary for proceeding.

Project Tracking

        We reviewed the draft NPS Recovery Act Implementation Plan (the Plan), which
describes specific data elements to be used for monitoring Recovery Act project schedules and
costs (Exhibit G in the Plan). NPS uses as many as eight existing systems, as well as additional
systems used by park or regional staff (Exhibit F in the Plan), to record this data.

        In discussions with regional staff, we found there is no integrated NPS-wide tracking
system for Recovery Act projects. Field staff track project status on spreadsheets maintained for
different programs (deferred maintenance, trails, and construction). Finding specific information
for NPS-wide summaries is difficult because there is no standard format for these spreadsheets.
We also found that staff tends to spend substantial time and effort manipulating these
spreadsheets to respond to various data calls, which takes time away from Recovery Act projects.

        We confirmed what regional staff told us about tracking with field staff in Yellowstone
and Grand Teton National parks. Both parks maintain spreadsheets to track their Recovery Act
projects. Technical and acquisition staffs also meet on a weekly basis to review and update the
status of each project, including planned obligation and project completion dates. This approach
works well and provides a good example for addressing real-time issues. But, as with other
locally developed spreadsheets, there is no simple way for NPS management to find information
necessary for projects NPS-wide.

       We found one exception to NPS’s ineffective tracking system. Acquisition support for
most Recovery Act construction projects will be provided by the Denver Service Center (the
Center). We found that the Center uses a commercial, off-the-shelf system to track costs,
expenditures, and progress throughout the life of construction projects. The system allows
remote locations to update projects in real-time. Two NPS regions (Alaska and Pacific West) are
implementing the system to track milestones on their construction projects.




                                                                                                     3
         Center officials believe this system was instrumental in its ability to increase its
obligation rate from 36 percent in fiscal year FY 2001 to 81 percent in FY 2008. This rate is
calculated by dividing funds obligated during the year by total funds appropriated for that year
(e.g., if $53 million is obligated in a year and $89 million appropriated for that year, the
obligation rate is 60 percent).

Recommendations

    We recommend that NPS:

    1.	 Provide access for regional acquisition staff to obtain information for Recovery Act
        projects and facilitate communication with parks, so acquisition support efforts can be
        more effective.

    2.	 Establish a requirement for parks to communicate with acquisition staff early in the
        process of each Recovery Act project to ensure accurate and sufficient information is
        prepared before submission to MABO.

    3.	 Implement an NPS-wide system to track costs, expenditures, and progress for Recovery
        Act projects. Consider the Denver Service Center system as a possible model.

cc: 	   Senior Advisor to the Secretary for Economic Recovery and Stimulus
        Assistant Secretary – Policy, Management and Budget
        Director, Office of Acquisition and Property Management
        Director, Office of Financial Management
        Recovery Act Coordinator, National Park Service
        Pacific West Region ARRA Lead – Deputy Regional Director/Chief of Staff
        Southeast Region ARRA Lead – Deputy Regional Director for Operations
        Intermountain Region ARRA Lead – Deputy Regional Director for Administration
        National Park Service Audit Liaison Officer




                                                                                                   4
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
